HHS/OIG-Audit--"Superfund Financial Activities at the Agency for Toxic Substances and Disease Registry for Fiscal Year 1993, (A-04-94-04543)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the Agency for Toxic Substances and Disease Registry for Fiscal Year 1993," (A-04-94-04543)
June 14, 1995
Complete
Text of Report is available in PDF format (1.36 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report found that the Agency for Toxic Substances and Disease Registry (ATSDR) generally administered
the fund according to the Superfund legislation. However, corrective action is needed to ensure that the Centers for Disease
Control and Prevention (CDC) and ATSDR meet all reporting requirements of agencies with which ATSDR has an interagency
agreement. Also, CDC should implement procedures to ensure timely submission of minority business utilization reports and
follow up with the Office of the Secretary to ensure that the report is submitted to the Environmental Protection Agency.
The Public Health Service concurred with our recommendations and provided a plan for corrective action.